BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF COMPLIANCE
No. 21-144
SEATTLE'S UNION GOSPEL MISSION,

Petitioner,
V.

MATTHEWS. WOODS,

Respondent.
As required by Supreme Court Rule 33. l(h), I certify
that the Brief of Amici Curiae the Islam and Religious
Freedom Action Team of the Religious Freedom
Institute and the Jewish Coalition for Religious Liberty
in Support of Petitioner contains 2,947 words,
excluding the parts of the Brief that are exempted by
Supreme Court Rule 33.l(d).
I declare under penalty of perjury that the foregoing
is true and correct.
Executed on September 2, 2021.

Emily Mullins
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

8790 Governor's Hill Drive

Franklin Square

(800) 890.5001

Suite 102

1300 I Street, NW, Suite 400E

www.beckergallagher.com

Cincinnati, Ohio 45249

Washington, DC 20005

Sworn to and subscribed before me by said Affiant
on the date designated below.

Notary Public
[seal]

JOHN D. GALLAGHER
N1Jlary Puo!ic. State of Ohio
My Commission Expir,,s
Februar.y 14, 2u~3

.

